FEDERAL BUREAU OF INVESTIGATION’S FOREIGN
LANGUAGE TRANSLATION PROGRAM FOLLOW-UP



         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 05-33
                July 2005
      FEDERAL BUREAU OF INVESTIGATION’S FOREIGN
      LANGUAGE TRANSLATION PROGRAM FOLLOW-UP

                       EXECUTIVE SUMMARY

      The Federal Bureau of Investigation’s (FBI) ability to translate foreign
language materials is critical to national security. The FBI must have the
capacity to prioritize, translate, and understand in a timely fashion the large
amount of foreign language materials that it collects. These translations
support its two highest investigative priorities — counterterrorism and
counterintelligence — as well as criminal and cyber-crimes programs,
international training and deployments, and interpreting and interviewing.

      Because of the importance of these issues, the Office of the Inspector
General (OIG) completed an audit in July 2004 of the FBI’s Foreign
Language Translation Program. The OIG’s 157-page audit, entitled “The
Federal Bureau of Investigation’s Foreign Language Program — Translation
of Counterterrorism and Counterintelligence Foreign Language Material,”
examined:

      •     whether there existed a backlog of unreviewed Foreign
            Intelligence Surveillance Act (FISA) material; and

      •     the hiring process for linguists, including the FBI’s progress in
            hiring qualified linguists to translate critical foreign language
            materials;

      •     whether procedures in the FBI’s language program adequately
            prioritize the translation workload;


      •     the adequacy of the Quality Control Program for linguists.

That audit found that the FBI’s collection of material requiring translation
had outpaced its translation capabilities, and therefore the FBI could not
translate all foreign language counterterrorism and counterintelligence
material it collected. The audit also found that the FBI had difficulty in filling
its critical need for additional contract linguists. In addition, the audit
reported that the FBI’s digital audio collection systems had limited storage
capacity and that audio sessions were sometimes deleted to make room for
new incoming audio sessions. With respect to the FBI’s Quality Control
Program for linguists, the audit found that the FBI was not in full compliance
with the standards it had adopted for reviews of the work of newly hired



                                        i
linguists, as well as annual reviews for permanent and contract linguists with
over one year of experience.


Follow-up Review

      In March and April 2005, the OIG conducted a follow-up examination
of the findings in our July 2004 audit. The purpose of the follow-up review
was to evaluate the FBI’s progress in responding to the recommendations
made in the audit report.

      The follow-up review concluded that the FBI has taken important steps
to address the OIG’s recommendations and has made progress in improving
the operations of the Foreign Language Program. For example, the FBI now
sets specific target staffing levels for linguists that account for attrition and,
as of March 30, 2005, has achieved 56 percent of current hiring goals, has
begun to identify counterterrorism cases with significant backlog on the
Counterterrorism FISA Monthly Survey, and has addressed digital collection
system storage limitations that can cause audio sessions to be deleted.
Although we found during our follow-up review that unreviewed translation
materials were still being deleted, no unreviewed counterterrorism or
Al Qaeda sessions had been deleted.

       However, key deficiencies remain in the FBI’s foreign language
translation program, including a continuing backlog of unreviewed material,
some instances where high-priority material has not been reviewed within
24 hours in accord with FBI policy, and continued challenges in meeting
linguist hiring goals and target staffing levels. Implementation of the Quality
Control Program has been slow, although the FBI recently has made
improvements in this area.

      Below, we describe the findings of our follow-up review regarding
progress made by the FBI since our July 2004 audit, as well as the FBI’s
continuing challenges.


Foreign Language Translation Workload and Unreviewed
Material

      Our follow-up review assessed the FBI’s progress since our July 2004
report in addressing the volume of unreviewed counterterrorism and
counterintelligence audio material (“backlog”) that it collects in its National
Foreign Intelligence Program. 1 In the following sections, we first update the
       1
         The FBI stated that more than 95 percent of the counterintelligence and
counterterrorism audio material collected in its National Foreign Intelligence Program is


                                              ii
amount of counterterrorism and counterintelligence material collected by the
FBI. We then examine the amount of unreviewed audio material, first by
counterterrorism material and then by counterintelligence material.


Workload

      Our follow-up review found that the FBI’s increased need for foreign
language translations has continued. Table A depicts the amount of
counterterrorism and counterintelligence material collected through the end
of FY 2004 (as of September 30, 2004). 2

      As Table A illustrates, the FBI’s counterterrorism audio workload has
increased by 19 percent from FY 2003 to FY 2004. The counterterrorism
text workload increased by 52 percent during the same period. With regard
to the counterintelligence workload, audio collection has decreased by
14 percent and text collection decreased by 24 percent during this same
period. 3




obtained pursuant to FISA. In this report, we do not assess the translation of criminal
foreign language material, including Title III intercepts. Therefore, in this report we refer to
the counterterrorism and counterintelligence material we examined as FISA material.
       2
         We accumulated the counterterrorism amounts from the FBI’s monthly
counterterrorism FISA surveys. To calculate the counterintelligence totals, we subtracted
the counterterrorism monthly FISA data from the FBI’s quarterly workload surveys of
counterintelligence and counterterrorism material.
       3
         As noted in our July 2004 report, the volume of counterterrorism and
counterintelligence material collected by the FBI was much higher in FY 2003 than in
FY 2001.




                                               iii
                            Table A: FOREIGN LANGUAGE WORKLOAD

                                              Percent                                  Percent      Percent of
                                             Increase                                 Increase         Total
                                   Audio        Over        Text                         Over       Collection 5
                         Fiscal Collection FY 2003 Collection                         FY 2003
          Program         Year    (Hours)      Levels     (Pages) 4                     Levels     Audio     Text
                          2003      153,179         N/A 1,458,394                            N/A    84%      16%
    Counterterrorism
                          2004      182,014        19% 2,215,951                            52%     80%      20%
                          2003      673,852         N/A 1,012,188                            N/A    97%       3%
    Counterintelligence
                          2004      579,595      (14)%      764,511                       (24)%     97%       3%
   Source: OIG-developed from FBI Language Services Section data.



      Unreviewed Audio Material

            Our July 2004 report found the FBI had a significant backlog in
      translating counterterrorism and counterintelligence FISA audio material.
      Table B provides the amount of audio collected and unreviewed through the
      end of first quarter of FY 2004 (as of December 31, 2003) and also through
      the end of the second quarter of FY 2005 (as of March 31, 2005). As that
      table demonstrates, the FBI’s collection of audio material continues to
      outpace its ability to review and translate all that material.

                   Table B: TOTAL AUDIO COLLECTED AND UNREVIEWED

                               Accrued                                       Accrued
                             Unreviewed        Audio                        Unreviewed        Audio
                                Audio        Collected                         Audio        Collected
                               FY 2002        FY 2002                        FY 2002        FY 2002        Percent
                               through        through          Percent       through        through      Unreviewed
                             1st Quarter    1st Quarter     Unreviewed      2nd Quarter    2nd Quarter        of
                               FY 2004        FY 2004             of         FY 2005        FY 2005         Total
        Program                (Hours)        (Hours)         Collected      (Hours)         (Hours)      Collected
  Counterterrorism                  24,786      354,014                7%         38,514       573,920             7%
  Counterintelligence              453,787    1,322,773               34%        669,228     2,015,998            33%
  Total                            478,573    1,676,787               29%        707,742     2,589,918            27%
Source: OIG calculations based on FBI Language Services Section data.



            As Table B demonstrates, the total collections of counterterrorism and
      counterintelligence audio material increased from approximately 1.6 million
      hours as of December 31, 2003, to approximately 2.5 million as of March 31,
      2005. During the same time period, the total amount of unreviewed audio

               4
                   Text collection includes faxes, e-mail, and other electronic data files.
               5
                The percent of total collection provides a comparison of the workload of total audio
      hours versus total text pages. These percentages were calculated using the FBI's resource
      planning standard for audio and text — that is, one full-time linguist can review 1,000 hours
      of audio or 50,000 pages of text a year.


                                                            iv
increased from 478,573 hours to 707,742 hours. As a percentage of total
collections, the percentage of unreviewed audio material remained relatively
constant, only slightly decreasing from 29 percent to 27 percent.

      1. Counterterrorism

      As shown in Table B, the FBI reported in its monthly counterterrorism
FISA surveys that the accrued unreviewed counterterrorism audio was
24,786 hours as of December 31, 2003, and has increased to 38,514 hours
as of March 31, 2005.

       However, in its monthly surveys, the FBI attempts to refine the
amount of counterterrorism audio that is reported as unreviewed by the
FBI’s data collection system. The FBI tries to eliminate double counting of
unreviewed material by more than one field office, unreviewed material in
cases that are no longer active, and collections of materials from the wrong
sources due to technical problems. To determine the amounts of
unreviewed material that should be eliminated on the monthly surveys, FBI
field offices submit what they believe is their total accrued backlog after
eliminating these items. The FBI then accumulates the field offices’
submissions to reach a refined estimate of the total amount of unreviewed
counterterrorism audio material.

       According to this method, our July 2004 audit reported that the FBI’s
estimated counterterrorism audio backlog was 4,086 hours as of April 2004.
In this follow-up review, according to this same method, we found that the
counterterrorism audio backlog had increased to 8,354 hours as of
March 2005. Therefore, according to this method, the counterterrorism
backlog represented 1 percent of all counterterrorism audio collected as of
April 2004, and 1.5 percent of all counterterrorism audio collected as of
March 2005.

       In addition, in this follow-up review we attempted to determine the
priority of the counterterrorism material that was not reviewed. The FBI
designates one of five levels of priority to its counterterrorism cases. We
found that none of the counterterrorism audio backlog as of March 2005 was
in the highest level priority cases. However, almost all of the 8,354 hours of
counterterrorism backlog reported by the FBI was in cases designated in the
second and third highest priority levels. Seventy-two percent of this backlog
was in the FBI’s second highest priority counterterrorism cases, and
27 percent was in the third highest priority.




                                      v
      2. Counterintelligence

       With respect to counterintelligence material, as Table A shows total
collections increased from approximately 1.3 million hours as of December
31, 2003, to 2 million hours as of March 31, 2005. The amount of
unreviewed counterintelligence material increased from 453,787 hours to
669,228 hours during this same period. The percentage of unreviewed
counterintelligence material remained relatively constant, decreasing only
slightly from 34 percent to 33 percent.

       In response, the FBI stated that it collects significant amounts of audio
material that it does not intend to translate, either immediately or possibly
ever. For example, it stated that the FBI’s digital collection systems cannot
reliably filter out “white-noise” (acoustical or electrical noise) and
unintelligible audio, which is collected but does not need to be reviewed. In
addition, the FBI stated that in many counterintelligence cases it collects
audio material that it stores and only translates if additional information
points to those materials as containing significant information that should be
reviewed. It stated that it believes that most of the unreviewed
counterintelligence backlog fell into these categories, although it could not
quantify or verify these amounts.

      3. Conclusion Regarding Unreviewed Material

      In sum, this follow-up review found that the FBI’s collection of audio
material continues to outpace its ability to review and translate that
material. The amount of unreviewed FBI counterterrorism and
counterintelligence audio material has increased since our July 2004 report.
According to the FBI’s calculations, the backlog of unreviewed
counterterrorism material has increased from 4,086 to 8,354 hours, which
represents 1.5 percent of total counterterrorism audio collections. The
amount of unreviewed counterintelligence material also has increased.
While the FBI believes that most of the unreviewed materials may not need
to be translated, it has no assurance that all this counterterrorism and
counterintelligence material does not need to be reviewed or translated.


Hiring of Linguists

       The organization and structure of the FBI’s Foreign Language Program
has continued to evolve since our July 2004 audit. The Foreign Language
Program is now a component of the FBI’s Directorate of Intelligence. As
reported in our July 2004 audit report, the number of FBI and contract
linguists had increased from 883 in FY 2001 to 1,214 as of April 2004. Since




                                       vi
then, the number of FBI and contract linguists has increased to 1,338 as of
March 30, 2005.

       The FBI has made progress in improving its hiring process since our
July 2004 review, although it still continues to face challenges hiring
linguists. We found that the FBI met 62 percent of its hiring goals for
FY 2004, and as of March 30, 2005, had met 56 percent of its hiring goals in
FY 2005. 6 As of March 30, 2005, target staffing levels have been achieved
in 23 of 52 languages for which target levels were established.

       A continuing challenge for the FBI is the time it takes to hire contract
linguists. Since our July 2004 audit, according to the FBI, the average time
it takes the FBI to hire a contract linguist has increased by at least 1 month
from 13 months to 14 months. However, according to our review of the
FBI’s data, it now takes the FBI 16 months on average to hire a contract
linguist. While the FBI’s figure of 14 months only counted the amount of
time to complete the four major parts of the hiring process, our figure of
16 months accounted for the total time it takes the FBI to process an
application. According to a business process engineering firm hired by the
FBI after our July 2004 report to study the linguist hiring process, over
70 percent of the processing time is spent waiting in queue (that is, work is
not being performed on the applications because of personnel, space,
technology, or facilities bottlenecks). 7


Prioritization of Workload

       In our follow-up review, we performed testing to determine if the FBI
was reviewing material designated as “high priority” within 24 hours. Our
testing of eight FBI field offices for three separate days in April 2005 found
that three offices had not reviewed all high priority material within 24 hours
on all three dates. A classified Appendix to this report contains details on
high priority audio unreviewed more than 24 hours after receipt.




       6
           The FBI switched to a calendar year basis in setting its 2005 and 2006 hiring goals
and target staffing levels. In order to maintain consistency with information reported in our
July 2004 report, our analysis is by fiscal year using the calendar year goals. Target
staffing levels refer to staffing needs that are based upon workload volumes and reflect the
number and type of linguists required to meet that workload, regardless of available
funding. Hiring goals refer to goals that are set only after funding for personnel has been
established.
       7
         The business process engineering firm’s study did not include the security
clearance adjudication process.


                                             vii
System Limitations

       As we described in our July 2004 report, because the FBI field offices’
digital collection systems have limited storage capacity, audio sessions
resident on a system are sometimes deleted through an automatic file
deletion procedure to make room for incoming audio sessions. Although
these sessions are archived, it is difficult for the FBI to determine, once
these sessions have been deleted and archived, whether they have been
reviewed. We found that sessions are automatically deleted in a set order,
and unreviewed sessions are sometimes included in the material deleted,
especially in offices with a high volume of audio to review.

      We reported in July 2004 that the FBI had not established necessary
controls to prevent critical audio material from being automatically deleted,
such as protecting sessions of the highest priority on digital collection
systems’ active on-line storage until linguists reviewed them. In our
July 2004 audit, we reported that the results of our tests showed that three
of eight offices tested had Al Qaeda sessions that potentially were deleted by
the system before linguists had reviewed them. We recommended that the
FBI establish necessary controls to prevent critical audio material from being
deleted.

       During our follow-up review this year, we tested data for eight offices
to determine if unreviewed translation material was still being deleted. The
results of our testing showed that no unreviewed counterterrorism or
Al Qaeda sessions had been deleted at the eight offices. However,
unreviewed counterintelligence material had been deleted and archived at
six of the eight offices.


Quality Control Program

       In response to our July 2004 report, the FBI modified its Translation
Quality Control Policy and Guidelines. These revisions became effective on
December 30, 2004. The modified policy and guidelines now require, for
example, the use of certified reviewers, when available; anonymous reviews,
when possible; the review of randomly selected materials marked as “Not
Pertinent” by a linguist, in addition to review of summary and verbatim
translations; a review for each language in which at least 20 percent of a
linguist’s time is spent translating; prompt feedback to resolve deficiencies;
and guidance with regard to action that should be taken when results of the
reviews are unsatisfactory.

      Although we believe the changes address concerns raised in our
July 2004 audit, we could not perform testing to determine compliance with
the modified guidelines for quality control reviews because a summary of the

                                      viii
results of the first quarterly report under the modified quality control policy
was not made available to the OIG until May 25, 2005, after we had
completed our fieldwork.

      During our fieldwork in March 2005, we found that the FBI still had no
system in place on a nation-wide basis to ensure that its field offices were
performing quality control reviews or were monitoring results of the reviews.
In July 2005, the FBI provided documentation that they now have a tracking
system in place for monitoring the reviews and the results of those reviews.

       We found during our follow-up work that even when field offices had
provided appropriate forms documenting completed reviews to the Language
Services Section (LSS), this information had not been entered into a tracking
system. On July 12, 2005, the FBI provided the OIG spreadsheets they
have recently begun using to monitor the reports from the field offices and
to track the results of the quality control reviews. LSS staff told us that in
order to adequately monitor the quality control program, the FBI would need
to hire additional linguists to address the compliance requirements of new
linguists and the annual reviews of full-time and contract linguists. For
example, the Section Chief of the LSS told the OIG that 10 of 274 language
analysts the FBI hopes to hire in FY 2006 would be dedicated to quality
control reviews. The Section Chief also told us that the additional 10
language analysts should provide enough resources for full implementation
of the quality control program.


Conclusion

       The success of the FBI’s foreign language translation efforts is critical
to its national security mission. In our July 2004 audit, the OIG found
several important areas in the FBI’s foreign language program that needed
improvement. We believe that since issuance of the July 2004 report the
FBI has taken significant steps to address many of our recommendations
and has made progress in improving the operations of the Foreign Language
Program. However, key deficiencies remain, including a continuing amount
of unreviewed material, instances where “high priority” material has not
been reviewed within 24 hours, and continued challenges in meeting linguist
hiring goals and target staffing levels.




                                       ix
                             TABLE OF CONTENTS

                                                                                                Page

INTRODUCTION .................................................................................1
SUMMARY FINDINGS FROM THE OIG’S JULY 2004 AUDIT
 REPORT ...........................................................................................3
    Evolution of Foreign Language Program ......................................... 3
    Foreign Language Program Workload and Unreviewed Material
    Statistics ................................................................................... 3
    Factors Contributing to the Increasing Amount of
     Unreviewed Material .................................................................. 5
    Timely Translation of Work and Quality Control ............................... 5
    Recommendations....................................................................... 6
CHANGES SINCE JULY 2004 THAT AFFECT THE FOREIGN
 LANGUAGE PROGRAM ......................................................................7
       Foreign Language Translation Workload and Unreviewed Material ...... 7
       Workload ................................................................................... 8
       Unreviewed Audio Material ........................................................... 9
       1. Counterterrorism.................................................................. 10
       2. Counterintelligence............................................................... 11
       3. Conclusion .......................................................................... 12
       Hiring of Linguists ..................................................................... 12
       Changes to Organization and Structure ........................................ 14
ISSUES AFFECTING TIMELY TRANSLATION OF MATERIALS .............15
    FBI’s Statistical Reporting System ............................................... 16
    Methods for Querying FISA Digital Collection Systems .................... 17
    Storage Capacity of Digital Collection Systems .............................. 18
    Adequate Information to Prioritize Workload ................................. 18
HIRING LINGUISTS .........................................................................19
    Goals and Target Staffing Levels ................................................. 19
    Ongoing Hiring Challenges ......................................................... 21
    Business Process Engineering Firm Study ..................................... 23
QUALITY CONTROL REVIEWS ..........................................................24
    Quality Control Policy ................................................................ 24
    Tracking Results of Quality Control Reviews ................................. 26

ALLEGATIONS RAISED BY SIBEL EDMONDS REGARDING
 FOREIGN LANGUAGE PROGRAM .....................................................28
CONCLUSION ...................................................................................28
                                                                                     Page

UNCLASSIFIED APPENDICES ...........................................................30
    Appendix 1 – Audit Objectives, Scope, and Methodology ............... 30
    Appendix 2 – Acronyms............................................................ 32
    Appendix 7 – OIG Review of Allegations of Sibel Edmonds ............ 40
    Appendix 8 – Federal Bureau of Investigation’s Response to the
                  Draft Audit Report .............................................. 43
    Appendix 9 – Office Of The Inspector General, Audit Division
                  Analysis Of The Federal Bureau Of Investigation’s
                  Response To The Federal Bureau Of Investigation’s
                  Foreign Language Translation Program Follow-Up
                  Draft Audit Report .............................................. 47



CLASSIFIED APPENDICES....................................................................

Appendices 3 through 6 (pages 33 through 39) are classified and do
not appear in the unclassified version of this report. These
appendices are provided in a separate document.

      Appendix 3 – Counterterrorism FISA Accrued Backlog Hours –
                    March 2005 ....................................................... 33
      Appendix 4 – Counterterrorism FISA Collection and Accrued
                    Backlog - May 2004 through March 2005 ............... 34
      Appendix 5 – Hours of Highest Priority Audio Unreviewed 24 Hours
                    After Receipt – Three Test Dates in April 2005 ........ 37
      Appendix 6 – Achievement of Linguist Hiring Goals for FY 2004
                    and Hiring Goals and Target Staffing Levels for
                    FY 2005 through March 30, 2005 .......................... 38
      FEDERAL BUREAU OF INVESTIGATION’S FOREIGN
      LANGUAGE TRANSLATION PROGRAM FOLLOW-UP

                           INTRODUCTION

      The Federal Bureau of Investigation’s (FBI) ability to translate foreign
language materials is critical to national security. The FBI must have the
capacity to prioritize, translate, and understand in a timely fashion the large
amount of foreign language materials that it collects. As the FBI continues
to focus on its two highest investigative priorities — counterterrorism and
counterintelligence — it will continue to rely heavily on its linguistic
capabilities.

       In addition to supporting its counterterrorism and counterintelligence
efforts, the FBI’s criminal and cyber-crimes programs, international training,
international deployments, and interpreting/interviewing assignments are
placing increasing demands on the FBI’s Foreign Language Program.

     Because of the importance of this area, the Office of the Inspector
General (OIG) completed an audit in July 2004 of the FBI’s Foreign
Language Translation Program. Among other issues, that audit examined:

      •     the hiring process for linguists, including the FBI’s progress in
            hiring qualified linguists to translate critical foreign language
            materials;

      •     whether procedures in the FBI’s language program adequately
            prioritize the workload;

      •     whether there existed a backlog of unreviewed Foreign
            Intelligence Surveillance Act (FISA) material;

      •     the adequacy of the Quality Control Program; and

      In July 2004, we issued a 157-page audit entitled, “The Federal
Bureau of Investigation’s Foreign Language Program — Translation of
Counterterrorism and Counterintelligence Foreign Language Material,”
containing the results of our review. We provided the full audit report, which
was classified by the FBI at the Secret level, to the FBI, the Department of
Justice (Department), Congress, and the National Commission on Terrorist
Attacks Upon the United States (9/11 Commission). In September 2004, we
publicly released an unclassified Executive Summary of the report.
      Because of the importance of the FBI Foreign Language Translation
Program, in March and April 2005, we conducted an expedited follow-up
examination of the findings in our July 2004 audit to evaluate the FBI’s
progress in responding to the report’s recommendations. This report
describes the results of that follow-up review. 8




      8
          Appendix 1 contains this audit’s objectives, scope, and methodology. Appendix 2
contains a list of acronyms used throughout the report. We have also compiled four
additional appendices to this report which contain data that the FBI considers to be
classified. We have provided those classified appendices to the FBI, the Department, and
Congress.


                                            2
          SUMMARY FINDINGS FROM THE OIG’S
              JULY 2004 AUDIT REPORT

       The FBI’s linguists play a critical role in developing effective
counterterrorism and counterintelligence information. Linguists are the first
line of analysis for information collected in a language other than English.
For example, linguists must sort through thousands of hours of intercepted
telephone conversations to identify pertinent material. The value of this
information is often subtle because the parties involved may suspect they
are being monitored. Linguists also must be able to recognize coded words
or cryptic implications of a conversation. This requires high standards of
language proficiency and cultural knowledge. Reviewing the vast amounts
of audio information collected presents significant management challenges
for the FBI, including prioritizing the workload and balancing limited
resources.


Evolution of Foreign Language Program

      Our July 2004 audit report described the significant evolution of the
FBI’s Foreign Language Program from a decentralized operation to one that
was more centralized at FBI Headquarters. At the time of that audit, the
Language Services Section (LSS) at FBI Headquarters managed the FBI’s
growing language translation program, which used more than 1,200 linguists
stationed across the United States in 52 FBI field offices and Headquarters.

      Our report also described how the Foreign Language Program had
experienced a large influx of funding since September 11, 2001, increasing
from $21.5 million in fiscal year (FY) 2001 to slightly over $66 million in
FY 2004. The number of linguists also grew from 883 in FY 2001 to 1,214 as
of April 2004. According to the FBI, as of April 2004 it had hired linguists at
the maximum rate that its funding allowed.


Foreign Language Program Workload and Unreviewed
Material Statistics

       At the same time, the FBI’s electronic surveillance collection in
languages primarily related to counterterrorism activities increased
dramatically − by 45 percent when comparing total collection in FY 2003 to
total collection in FY 2001. The FBI expected translation growth rates in
these languages to increase by at least 15 percent annually.




                                      3
       Our July 2004 audit found that the FBI’s collection of material
requiring translation had outpaced its translation capabilities, and the FBI
could not translate all the foreign language counterterrorism and
counterintelligence material it collected. As of the first quarter of FY 2004,
the FBI reported that nearly 24 percent of ongoing FISA counterintelligence
and counterterrorism intercepts were not monitored. According to the LSS
official who prepared this information, during the first quarter of FY 2004 the
FBI only had linguist capacity to review 76 percent of the intercepts
collected. The official stated that the FBI reviewed all the counterterrorism
information it collects, but not all counterintelligence information.

        With respect to unreviewed audio material, the FBI maintained
statistics only on the backlog for counterterrorism FISA cases and only by
case, not by language. In addition, the FBI stated that its data could not be
used reliably to determine the precise amount of unreviewed material that
needed to be translated because of the imprecision of the translation
workload reporting process and the FBI digital collection systems’ inability to
filter unintelligible audio and modem tones, which do not require translation.
However, the FBI’s statistics indicated that, as of April 2004, 4,086 hours of
FISA recordings in counterterrorism cases were unreviewed.

       In addition, the July 2004 audit report calculated the number of hours
of unreviewed counterterrorism and counterintelligence audio in languages
that the FBI classifies as traditionally associated with counterterrorism and
counterintelligence. While recognizing limitations of this calculation, our
analysis of the FBI’s data in our July 2004 audit indicated that since
September 11, 2001, more than 119,000 hours of audio in languages
traditionally associated with counterterrorism cases had not been reviewed.
Additionally, we found that more than 370,000 hours of audio in languages
traditionally associated with counterintelligence activities had not been
reviewed. 9

      Because the FBI did not maintain statistical records distinguishing this
unreviewed material by specific language or type of case, we could not
precisely determine which unreviewed material was associated with
counterintelligence cases and which was associated with counterterrorism
cases. FBI Foreign Language officials told the OIG that most of the material
we reported as unreviewed in our July 2004 report was associated with
counterintelligence cases.

       9
         In our July 2004 audit, we focused on the unreviewed counterterrorism and
counterintelligence audio material instead of text material. Text collection, while increasing
since FY 2001, represented a small percentage of the FBI’s foreign language workload in the
high-volume counterterrorism and counterintelligence languages — about 13 percent and
3 percent, respectively, of the FBI's foreign language workload in FY 2004. We recognized,
however, that translation of text material also is of critical importance and a high priority for
the FBI.


                                               4
Factors Contributing to the Increasing Amount of
Unreviewed Material

       In our July 2004 report, we attributed the FBI’s backlog of unreviewed
counterterrorism and counterintelligence material to an insufficient number
of linguists, as well as limitations in the FBI’s translation information
technology systems.

      We found that the FBI had difficulty in filling its critical need for
additional contract linguists. Although the FBI received many applications,
the FBI estimated that the contract linguist vetting process eliminated over
90 percent of the applicants processed for hiring. 10 For those applicants who
passed the vetting process and were hired, we found that the applicant
processing cycle took approximately 13 months.

       In addition to hiring difficulties, our audit determined that the FBI’s
digital collection systems had limited storage capacity and that audio
sessions were sometimes deleted to make room for new incoming audio
sessions. Although sessions were automatically deleted in a set order, we
found that unreviewed sessions were sometimes included in the material
deleted, especially in offices with a high volume of translation work. Three
of eight offices we tested had sessions related to Al Qaeda that potentially
were deleted by the system before linguists had reviewed them.


Timely Translation of Work and Quality Control

      According to FBI officials, at the time of our audit the FBI’s stated
expectation was that counterterrorism FISA audio should be reviewed within
24 hours of interception. In addition, FBI policy required Al Qaeda FISA
audio to be reviewed within 12 hours of interception. However, we found
that during April 2004 36 percent of intercepted Al Qaeda FISA audio
sessions forwarded to the Language Services Translation Center at FBI
Headquarters for translation were not even received within 12 hours.

       Our audit also examined the FBI’s Quality Control Program for
linguists, which was designed to ensure that the work of linguists was
reviewed periodically for accuracy. We found that the FBI was not in full
compliance with standards for required reviews for newly hired linguists, as
well as annual reviews for permanent and contract linguists with over one
year of experience.

       10
          The contract linguist vetting process includes language proficiency testing, a
personnel security interview, a polygraph examination, and a background investigation.
Only upon the successful completion of all stages of the vetting process are contract linguist
applicants approved and granted a Top Secret security clearance.


                                              5
Recommendations

      Our audit report contained 18 recommendations to help improve the
FBI’s Foreign Language Program, including:

       •      expediting the implementation of the Foreign Language
              Program’s automated statistical reporting system;

       •      ensuring that each office’s digital collection system storage
              capabilities were sufficient so that unreviewed audio material for
              critical cases would not be deleted automatically;

       •      ensuring that hiring goals for linguists included expected
              attrition;

       •      ensuring that adequate information regarding the relative
              priority of individual counterterrorism and counterintelligence
              cases was provided to the Foreign Language Program;

       •      strengthening the quality control procedures to ensure that
              translations were accurate and that all pertinent material was
              being translated; and

       •      implementing a system to monitor compliance with quality
              control procedures at the field office and national level.

    The FBI generally was receptive to the audit’s recommendations and
agreed to take corrective action.

       This follow-up review, conducted in March and April 2005, assessed
the FBI’s progress since our July 2004 report in responding to our
recommendations and in addressing the volume of unreviewed
counterterrorism and counterintelligence audio material (backlog) that it
collects in its National Foreign Intelligence Program. 11

     In the sections that follow, we provide the results of our follow-up
review, first examining the extent of unreviewed counterterrorism and
counterintelligence material.




       11
           The FBI stated that more than 95 percent of the counterintelligence and
counterterrorism audio material collected in its National Foreign Intelligence Program is
obtained pursuant to FISA. In this report, we do not assess the translation of criminal
foreign language material, including Title III intercepts. Therefore, in this report we refer to
the counterterrorism and counterintelligence material we examined as FISA material.


                                               6
CHANGES SINCE JULY 2004 THAT AFFECT THE FBI’S
        FOREIGN LANGUAGE PROGRAM

Foreign Language Translation Workload and Unreviewed
Material

       Each FBI field office and the Language Services Translation Center at
FBI headquarters is required to submit a survey quarterly to the LSS for
each language processed at that office. The survey requires the reporting of
the volume of FISA audio/video and text collected, forwarded to another
office, received from another office, and reviewed by each language.
However, the quarterly survey does not specifically report backlog, which the
FBI defines as any unreviewed material. The quarterly survey also does not
differentiate between counterterrorism and counterintelligence material or
report the translation information by type of case. Rather, the quarterly
survey reports the information by language.

      Additionally, each field office and the Language Services Translation
Center with active counterterrorism FISAs are required to submit a monthly
survey to the LSS for each active FISA case. In contrast to the quarterly
survey described above, the monthly survey reports by counterterrorism
case the volume of FISA audio/video, text, electronic data files collected and
reviewed, and any accrued backlog.

       During our follow-up work performed in March and April 2005, we used
the FBI’s quarterly and monthly surveys to assess the status of the FBI’s
efforts to reduce the amount of total unreviewed audio material that we
identified in our July 2004 audit. However, in doing so we also attempted to
differentiate between counterterrorism and counterintelligence material. 12

      In the following sections, we first update the amount of
counterterrorism and counterintelligence material collected by the FBI. We
then examine the amount of unreviewed audio material, first by
counterterrorism material and then by counterintelligence material.

       12
           In this follow-up report, as in our July 2004 audit, we used the best available FBI
data on the extent of unreviewed audio. The data we used is the same data that the FBI’s
Language Services Section uses for its budget preparation, workforce planning, and
performance measurement toward its strategic objective of 100 percent coverage of
FBI-collected intelligence. However, we agree with the FBI that because of the imprecision
of the FBI’s workload reporting process, this data may result in statistics that may not be
precisely accurate in describing the exact amount of total unreviewed material. In addition,
the OIG did not audit the FBI numbers and we therefore can make no representation as to
their accuracy.



                                              7
  Workload

        Our follow-up review found that the FBI’s increased need for foreign
  language translations has continued. Table 1 depicts the amount of
  counterterrorism and counterintelligence material collected through the end
  of FY 2004 (as of September 30, 2004). 13

        As Table 1 illustrates, the FBI’s counterterrorism audio workload has
  increased by 19 percent from FY 2003 to FY 2004. The counterterrorism
  text workload increased by 52 percent during the same period. With regard
  to the counterintelligence workload, audio collection has decreased by
  14 percent and text collection decreased by 24 percent during this same
  period. 14

                    Table 1: FOREIGN LANGUAGE WORKLOAD

                                           Percent                      Percent      Percent of
                                          Increase                     Increase        Total
                                Audio        Over        Text             Over      Collection 16
                      Fiscal Collection FY 2003 Collection             FY 2003
       Program         Year    (Hours)      Levels    (Pages) 15         Levels     Audio   Text
                       2003      153,179         N/A 1,458,394                N/A    84%    16%
 Counterterrorism
                       2004      182,014        19% 2,215,951                52%     80%    20%
                       2003      673,852         N/A 1,012,188                N/A    97%     3%
 Counterintelligence
                       2004      579,595      (14)%      764,511           (24)%     97%     3%
Source: OIG-developed from FBI Language Services Section data




         13
             We accumulated the counterterrorism amounts from the FBI’s monthly
  counterterrorism FISA surveys to develop the total counterterrorism audio collection. To
  calculate the counterintelligence totals, we subtracted the counterterrorism monthly FISA
  data from the FBI’s quarterly workload surveys of counterintelligence and counterterrorism
  material.
         14
            As noted in our July 2004 report, the volume of counterterrorism and
  counterintelligence material collected by the FBI was much higher in FY 2003 than in
  FY 2001.
         15
            Text collection includes faxes, e-mail, and other electronic data files.
         16
             The percent of total collection provides a comparison of the workload of total
  audio hours versus total text pages. These percentages were calculated using the FBI's
  resource planning standard for audio and text — that is, one full-time linguist can review
  1,000 hours of audio or 50,000 pages of text a year. For example, to obtain the FY 2003
  figures of 84 percent for audio and 16 percent for text: (1) divide 1,458,394 pages of text
  collection by 50 to arrive at 29,168; (2) add 153,179 and 29,168 to arrive at 182,347;
  (3) divide 153,179 by 182,347 to arrive at 84 percent for audio; and (4) divide 29,168 by
  182,347 to arrive at 16 percent for text.



                                               8
      Unreviewed Audio Material

             Our July 2004 report found the FBI had a significant backlog in
      translating counterterrorism and counterintelligence FISA audio material.
      However, identification of the precise amount of unreviewed
      counterterrorism material, as opposed to counterintelligence material, was
      difficult to determine because of the way the FBI collects its survey data.
      The FBI does not specifically track the amount of counterintelligence
      materials. Therefore, separating counterintelligence and counterterrorism
      unreviewed materials requires subtracting the monthly counterterrorism
      survey from the quarterly workload survey. After discussions with the FBI,
      we used this method in this follow-up review to distinguish counterterrorism
      and counterintelligence unreviewed audio backlog. 17

             Using this method, Table 2 provides the amount of audio collected and
      unreviewed through the end of the first quarter of FY 2004 (as of
      December 31, 2003) and also through the end of the second quarter of
      FY 2005 (as of March 31, 2005). As that table demonstrates, the FBI’s
      collection of audio material continues to outpace its ability to review and
      translate all that material.


                    Table 2: TOTAL AUDIO COLLECTED AND UNREVIEWED


                               Accrued                                       Accrued
                             Unreviewed        Audio                        Unreviewed        Audio
                                Audio        Collected                         Audio        Collected
                               FY 2002        FY 2002                        FY 2002        FY 2002        Percent
                               through        through          Percent       through        through      Unreviewed
                             1st Quarter    1st Quarter     Unreviewed      2nd Quarter    2nd Quarter        of
                               FY 2004        FY 2004             of         FY 2005        FY 2005         Total
        Program                (Hours)        (Hours)         Collected      (Hours)         (Hours)      Collected
  Counterterrorism                  24,786      354,014                7%         38,514       573,920             7%
  Counterintelligence              453,787    1,322,773               34%        669,228     2,015,998            33%
  Total                            478,573    1,676,787               29%        707,742     2,589,918            27%
Source: OIG calculations based on FBI Language Services Section data



            Table 2 demonstrates that the total collections of counterterrorism and
      counterintelligence audio material increased from approximately 1.6 million
      hours as of December 31, 2003, to approximately 2.5 million as of March 31,
      2005. During the same time period, the total amount of unreviewed audio
      increased from 478,573 hours to 707,742 hours. As a percentage of total



               Although we used this new method in our follow-up review, we believe the method
               17

      we used in our July 2004 audit also provided an accurate assessment of the overall amount
      of unreviewed FBI FISA material.


                                                            9
collections, the percentage of unreviewed audio material remained relatively
constant, only slightly decreasing from 29 percent to 27 percent.


       1. Counterterrorism

      As shown in Table 2, the FBI reported in its monthly counterterrorism
FISA surveys that the accrued unreviewed counterterrorism audio was
24,786 hours as of December 31, 2003, and has increased to 38,514 hours
as of March 31, 2005.

       However, in its monthly surveys, the FBI attempts to refine the
amount of counterterrorism audio that is reported as unreviewed by the
FBI’s data collection system. The FBI tries to eliminate double counting of
unreviewed material by more than one field office, unreviewed material in
cases that are no longer active, and collections of materials from the wrong
sources due to technical problems. To determine the amounts of
unreviewed material that should be eliminated on the monthly surveys, FBI
field offices submit what they believe is their total accrued backlog after
eliminating these items. The FBI then accumulates the field offices’
submissions to reach a refined estimate of the total amount of unreviewed
counterterrorism audio material.

       According to this method, our July 2004 audit reported that the FBI’s
estimated counterterrorism audio backlog that we reported in our July 2004
report was 4,086 hours as of April 2004. In this follow-up review, according
to this same method, we found that the counterterrorism audio backlog had
increased to 8,354 hours as of March 2005. 18 Therefore, according to this
method the counterterrorism backlog represented 1 percent of all
counterterrorism audio collected as of April 2004 and 1.5 percent of all
counterterrorism audio collected as of March 2005.

     Table 3 below shows this counterterrorism audio backlog by month
from April 2004 through March 2005. The table shows that the
counterterrorism backlog remained relatively constant until November 2004,
when it began increasing.




       18
         See classified Appendices 3 and 4 for additional details on the monthly audio
accrued backlog.



                                            10
Table 3: COUNTERTERRORISM AUDIO ACCRUED BACKLOG
            April 2004 through March 2005
                     Backlog Reported at the End of Each Month



   9,000

   8,000

   7,000

   6,000

   5,000

   4,000

   3,000

   2,000
            4




                                      4


                                      4




                                                                     4
                       4


                       4


                                     4




                                                                                                   5
                                                         4




                                                                              4


                                                                                       5




                                                                                                   5
         00




                                   00
                     00
                     00




                                  00




                                                                                                 00
                                                       00


                                                                  00
                                   00




                                                                                                00
                                                                                    00
                                                                           00
         r2




                                g2
                   y2


                  n2


                                l2




                                p2




                                                                                             b2
                                                     t2

                                                              v2




                                                                                    n2




                                                                                              r2
                                                                           c2
                              Ju




                                                   Oc
    Ap




                                                                                           Ma
                Ma




                                                             No
                             Au




                                                                         De
                Ju




                             Se




                                                                                           Fe
                                                                                  Ja

   Source: FBI Language Services Section counterterrorism FISA monthly surveys.

       In addition, in this follow-up review we attempted to determine the
priority of the counterterrorism material that was not reviewed. The FBI
designates one of five levels of priority to its counterterrorism cases. We
found that none of the counterterrorism audio backlog as of March 2005 was
in the highest level priority cases. However, almost all of the 8,354 hours of
counterterrorism backlog reported by the FBI was in cases designated in the
second and third highest priority levels. Seventy-two percent of this backlog
was in the FBI’s second highest priority counterterrorism cases, and 27
percent was in the third highest priority. 19


         2. Counterintelligence

       With respect to counterintelligence material, as Table 1 shows total
collections increased from approximately 1.3 million hours as of

         19
              Classified Appendix 3 contains more details on the backlog within each priority
level.


                                                11
December 31, 2003, to 2 million hours as of March 31, 2005. The amount of
unreviewed counterintelligence material increased from 453,787 hours to
669,228 hours during this same period. The percentage of unreviewed
counterintelligence material remained relatively constant, decreasing from
34 percent to 33 percent.

       In response, the FBI stated that it collects significant amounts of audio
material that it does not intend to translate, either immediately or possibly
ever. For example, it stated that the FBI’s digital collection systems cannot
reliably filter out “white-noise” (acoustical or electrical noise) and
unintelligible audio, which is collected but does not need to be reviewed. In
addition, the FBI stated that in many counterintelligence cases it collects
audio material that it stores and only translates if additional information
points to those materials as containing significant information that should be
reviewed. It also stated that it believes that most of the unreviewed
counterintelligence backlog fell into these categories, although it could not
quantify or verify these amounts.


       3. Conclusion Regarding Unreviewed Material

      In sum, this follow-up review found that the FBI’s collection of audio
material continues to outpace its ability to review and translate that
material. The amount of unreviewed FBI counterterrorism and
counterintelligence audio material has increased since our July 2004 report.
According to the FBI’s calculations, the backlog of unreviewed
counterterrorism material has increased from 4,086 to 8,354 hours, which
represents 1.5 percent of total counterterrorism audio collections. The
amount of unreviewed counterintelligence material also has increased.
While the FBI believes that most of the unreviewed materials may not need
to be translated, it has no assurance that all this counterterrorism and
counterintelligence material does not need to be reviewed or translated.


Hiring of Linguists

      During the past year, the FBI has continued its efforts to add
additional linguists. The number of FBI and contract linguists has increased
from approximately 1,200 as of April 1, 2004, as reported in our July 2004
report, to 1,338 as of March 30, 2005. 20 Moreover, Foreign Language
Program funding has increased from $21.5 million in FY 2001 to

       20
         The FBI’s linguist workforce consists of contract linguists and full time permanent
language analysts. Contract linguists are compensated through the FBI’s Foreign Language
Program Budget. Language analyst salaries and benefits are funded separately.



                                            12
$36.2 million in FY 2005. Funding for language analyst salaries and benefits
also has increased from $30.7 million in FY 2001 to $34.8 million in FY 2005.


                  Table 4: FOREIGN LANGUAGE PROGRAM FUNDING

                                                                       21
                                                                 $66.1
                  70


                  60


                  50
                                                                                   22
                                                                             $36.2
                  40
      $M                                                $28.5
                  30                     $23.0
                             $21.5

                  20


                  10


                   0
                           FY01       FY02            FY03      FY04        FY05


Source: FBI Language Services Section 21 22




       21
           The final FY 2004 funding for the Foreign Language Program was $66,139,002.
We reported a projected budget for FY 2004 of slightly less than $70 million. FY 2004
funding included $38.5 million from a supplemental appropriations bill in FY 2003. Only
$9.3 million of this funding recurred in FY 2005.
       22
          Originally we reported a projected budget of $45.1 million for FY 2005. The
reason for the difference is a combination of legislatively mandated rescissions and the fact
that the projected budget included “critical unfunded” budget items.



                                                 13
               Table 5: LANGUAGE ANALYST SALARIES AND BENEFITS



                  40                                $37.0
                                                                            $34.823
                                        $33.6
                  35
                            $30.7                               $29.5

                  30

                  25

     $M           20

                  15

                  10

                   5

                   0
                          FY01        FY02        FY03       FY04         FY05
                                                                        (Projected)

Source: FBI Language Services Section 23



Changes to Organization and Structure

      The organization and structure of the FBI’s Foreign Language Program
has continued to evolve since our July 2004 audit. On October 1, 2004,
responsibility for the Foreign Language Program was transferred from the
Office of International Operations to the FBI’s Office of Intelligence. The
Office of Intelligence became the Directorate of Intelligence on February 28,
2005.

       According to FBI officials, the Foreign Language Program was
transferred to the Directorate of Intelligence to strengthen FBI efforts to
create a single program to manage all FBI activities that produce
intelligence. The LSS now consists of three Translation and Deployment
Units, an Operations Management Unit, and the National Virtual Translation




       23
          As of March 25, 2005, the FBI had 406 language analysts on board. The
estimated current spending for compensation and benefits for these language analysts is
$28.8 million. Projected spending for FY 2005 is for the FBI’s funded staffing level of 490
language analysts.


                                             14
Center. 24 Linguists in field offices have been reassigned to field intelligence
groups, which also supervise intelligence analysts.


                    ISSUES AFFECTING TIMELY
                   TRANSLATION OF MATERIALS

      In our July 2004 audit report, we noted that the FBI Director had
established an expectation that counterterrorism FISA interceptions should
be reviewed within 24 hours of interception. In addition, we reported that
FBI policy required Al Qaeda FISAs to be reviewed within 12 hours of
interception. However, our July 2004 audit found that these types of
interceptions were not always reviewed within the expected timeframes.

      During our follow-up work, several senior FBI officials stated that not
every Al Qaeda case is of the highest priority and that it was no longer FBI
policy to review material in all Al Qaeda cases within 12 hours.

       We discussed this issue with the FBI Deputy Director, who said that
after the September 11 attacks the FBI intended that all materials in every
Al Qaeda case be reviewed within 12 hours. This policy was promulgated in
an e-mail from the FBI Deputy Director to all Special Agents in Charge on
July 15, 2002. However, the Deputy Director told the OIG that, over time,
the FBI has come to realize that this goal was unreasonable, because of the
number of linguists available, and because not every Al Qaeda case is of the
highest priority. Rather, the Deputy Director said that it is the FBI’s goal to
review the highest-priority material within 12 hours, regardless of whether it
pertains to an Al Qaeda case or another matter. The Deputy Director also
said that 24 hours is a more realistic goal for “high priority” cases, but this
target has not yet been officially promulgated. The Deputy Director said the
key is to prioritize and “triage” material according to what is considered to
be the greatest threat, based upon the best intelligence available, and then
to address that material first. The Deputy Director also said that it is the FBI
Director’s expectation that the highest-priority material will be reviewed
within 24 hours and that all other material will be reviewed as soon
thereafter as possible.

       24
           Each Translation and Deployment Unit is responsible for a subset of languages
and directs the FBI’s linguist resources to support priority FBI matters throughout all field
offices, headquarters divisions, and Legats. The Operations Management Unit develops,
implements and ensures compliance with administrative and operational policies,
procedures, and guidelines for Foreign Language Program personnel throughout the FBI. It
also manages the quality control program. The National Virtual Translation Center provides
language support and translators for the Intelligence Community. The FBI acts as the
Center’s Executive Agent and provides staffing and logistics support.


                                             15
      We discussed this issue with the Executive Assistant Director in charge
of the Directorate of Intelligence (EAD-I), who agreed that it was the FBI’s
expectation that the highest priority material would be reviewed within 24
hours. She said that she intends to promulgate rules regarding the
timeliness of review so there would be no confusion as to expectations. The
EAD-I emphasized that “reviewing the material” means listening to or
reading it, not producing a written summary or verbatim translation. The
EAD-I also told us that these timeliness expectations apply to FISA material,
although she emphasized that these materials are only a portion of the
Foreign Language Program’s workload. 25

      In our follow-up review, we performed testing to determine if the FBI
was reviewing material designated as “high priority” within 24 hours. Our
testing of data for eight FBI field offices for three days in April 2005 found
that three offices had not reviewed their high-priority material within 24
hours on all three dates. 26


FBI’s Statistical Reporting System

      Our July 2004 audit report noted that the FBI’s ability to monitor
translation workload was hampered because the FBI had no method to
consistently deliver accurate workload statistics. We recommended that the
FBI expedite the implementation of its interim automated statistical
reporting system, called Work Flow Manager; ensure that the system
accurately reflected accrued backlog, as well as the age of the backlog;
implement controls to ensure digital collection systems are mapped
properly; and ensure that records are placed in the correct field format.

       Work Flow Manager. Our follow-up review found that the FBI has
made improvements to Work Flow Manager. Work Flow Manager is currently
uploading data from the collection systems, and testing by the FBI has
shown that the data uploaded to Work Flow Manager matches the data in
the collection systems. However, the system is still not fully used because
the FBI has not completed verifying the reliability of the data in the system.
The Foreign Language Program is currently assessing the reliability of Work
Flow Manager by comparing its results to data being manually reported by
the field offices. As a result of the validation process, however, the FBI also
has determined that standardized reporting procedures are needed and has
instructed the field offices to report backlog based on a specific query that

       25
          In addition to FISA material, the Foreign Language Program’s translation of audio
recordings consists of Title III material that also can have stringent deadlines.
       26
         Classified Appendix 5 contains additional detail on high priority audio unreviewed
more than 24 hours after receipt.


                                            16
would produce uniform results, as developed by the Information Technology
Division.

      Age of Accrued Backlog. Because Work Flow Manager is not fully
used, the FBI still does not have a method to assess the age of the accrued
backlog. As part of the process to validate Work Flow Manager data, all data
uploaded prior to September 1, 2004, was deleted from the database and
the system began uploading new data on September 1, 2004. As a result,
any sessions created before September 1, 2004, but not reviewed after that
date would not be uploaded to Work Flow Manager. Therefore, some
unreviewed sessions may not be identified as backlog.

       Statistical Reporting. FBI Foreign Language Program managers told
us that the FBI’s long-term solution to statistical reporting on translation
backlog will be realized in a phased deployment of the Electronic
Surveillance Data Management System (EDMS). 27 According to current
projections, EDMS will not be fully deployed until FY 2009. However, the FBI
official in charge of the EDMS project told us that the current projections for
EDMS’s deployment and budget are outdated, and the FBI is currently in the
process of updating them. He said the deployment schedule depends on
varying factors, including funding for the project over the next several years.


Methods for Querying FISA Digital Collection Systems

       We found in our July 2004 audit report that some FBI linguists were
not sufficiently knowledgeable about the methods to query the current
collection system so that they could identify all translation material needing
review. We recommended that the FBI ensure that all linguists are
adequately trained so that they can identify all of this material.

      In response to this recommendation, the FBI developed a quick
reference guide to assist linguists in operating the digital collection system.
However, in our follow-up review we concluded that the guide does not
provide adequate instruction to ensure that all linguists can effectively query
the current system. For example, we asked a Foreign Language Program
Manager if, by following the query instructions provided in the quick
reference guide, a linguist could identify all unreviewed audio material. This
manager described a specific situation where the query instructions provided
in the guide would not identify all unreviewed material.

       27
           According to the FBI, EDMS ultimately will be the presentation/reviewing system
for all FISA digital data collected. It will be able to monitor all information for potential
backlog and duration of backlog and will produce statistical reports regarding backlog. The
FBI plans for EDMS to support technology not currently available or fully functional on the
present digital collection systems.


                                             17
Storage Capacity of Digital Collection Systems

       As we described in our July 2004 report, because the FBI field offices’
digital collection systems have limited storage capacity, audio sessions
resident on a system are sometimes deleted through an automatic file
deletion procedure to make room for incoming audio sessions. Although
these sessions are archived, it is difficult for the FBI to determine, once
these sessions have been deleted and archived, whether they have been
reviewed. We found that sessions are automatically deleted in a set order,
and unreviewed sessions are sometimes included in the material deleted,
especially in offices with a high volume of audio to review.

      We reported in July 2004 that the FBI had not established necessary
controls to prevent critical audio material from being automatically deleted,
such as protecting sessions of the highest priority on digital collection
systems’ active on-line storage until linguists reviewed them. Also, in our
July 2004 audit we reported that the results of our tests showed that three
of eight offices tested had Al Qaeda sessions that potentially were deleted by
the system before linguists had reviewed them. We recommended that the
FBI establish necessary controls to prevent critical audio material from being
deleted.

       During our follow-up review this year, we tested data for eight offices
to determine if unreviewed translation material was still being deleted. The
results of our testing showed that no unreviewed counterterrorism or
Al Qaeda sessions had been deleted at the eight offices. However,
unreviewed counterintelligence material had been deleted and archived at
six of the eight offices.


Adequate Information to Prioritize Workload

      In our July 2004 report, we found that FBI operational divisions were
not providing the Foreign Language Program with sufficient information to
enable it to effectively prioritize its work. We recommended that the FBI
ensure that adequate information is provided to the Foreign Language
Program regarding the relative priority of individual counterterrorism and
counterintelligence cases, both FISA and non-FISA.

      In our follow-up review, we attempted to determine from the Program
Manager who coordinates the prioritization of national workload for the
Foreign Language Program if the LSS was receiving sufficient information
from the operational divisions to effectively prioritize its workload. The
Program Manager told us that the LSS receives regular weekly updates to
FISA prioritization, and that the updates are more consistent than they were
at the time of our original audit work. He said that all groups who should

                                      18
provide input to the process, including the Counterterrorism,
Counterintelligence, Cyber, and Criminal Divisions, attend weekly update
meetings. The Program Manager also said that the operational divisions now
have a much better understanding of the type of input and direction the
Foreign Language Program needs to prioritize its work. The Program
Manager added that there is better understanding in the field that FBI
Headquarters is running the national investigations and setting the priorities.
The Program Manager said the field offices may not be happy about this, but
they understand that linguists must follow the national priorities set by FBI
Headquarters.


                             HIRING LINGUISTS

Goals and Target Staffing Levels 28

      Our July 2004 audit report found that while the FBI substantially
increased its language translation capabilities, it did not meet its linguist
hiring goals for all languages for which goals were set for FY 2002 or
FY 2003.

       In our follow-up work, we analyzed hiring data for FY 2004 and
FY 2005. We found that the FBI met 62 percent of its hiring goals for
FY 2004, and, as of March 30, 2005, had met 56 percent of its hiring goals
in FY 2005. 29 Table 6 shows the FBI’s overall progress in meeting its hiring
goals.




       28
          Target staffing levels refer to staffing needs that are based upon workload
volumes and reflect the number and type of linguists required to meet that workload,
regardless of available funding. Hiring goals refer to goals that are set only after funding for
personnel has been established.
       29
           The FBI switched to a calendar year basis in setting its 2005 and 2006 hiring
goals and target staffing levels. In order to maintain consistency with information reported
in our July 2004 report, our analysis is by fiscal year, using the calendar year goals.




                                              19
        Table 6: STATUS OF MEETING LINGUIST HIRING GOALS 30

                                                                                       Net
                          On Board at                                    Over/      Increase
                          Beginning of     Hiring      Linguists         Under          in
       Fiscal Year             FY           Goal         Hired            Goal      Linguists
          2005
  (through 3/30/2005)           1,220           264           147        (117)           70
          2004                     659          332           205        (127)          117
          2003                     586          263           164         (99)           98
          2002                     351     297-352            254         (43)          191
Source: FBI Language Services Section. Hiring goals for 2005 are for the calendar year.

        For FY 2004, the FBI met its hiring goals in 11 of the 26 languages for
 which goals were established: 6 of the 13 languages designated “highest
 priority,” 2 of the 9 languages designated “priority,” and 3 of the 4
 languages designated “important.” 31 The FBI hired 205 language analysts
 and contract linguists in FY 2004, resulting in a net increase of 117 linguists.

       As of March 30, 2005, the FBI had met hiring goals in 14 of 43
 languages for which goals were established: 3 of the 14 languages
 designated “higher density,” and 11 of the 29 languages designated “lower
 density.” 32

        We also noted in our July 2004 audit report that the FBI did not
 account for attrition when determining its hiring goals. Therefore, its goals
 were based on hiring a specific number of linguists for each language, rather
 than hiring to a desired personnel ceiling level for each language. We also
 noted that hiring goals did not account for contract linguists who worked less
 than a full week. We recommended that the FBI ensure that hiring goals for
 linguists, including attrition, are based on staffing levels to be achieved.




        30
            Reported statistics are for the languages for which the Language Services Section
 established hiring goals. Classified Appendix 6 contains information on hiring of linguists in
 specific languages.
        31
          “Highest Priority,” “Priority,” and “Important” were designations assigned by the
 Language Services Section to indicate the relative priority of the FY 2004 hiring goals for
 each language.
        32
            “Higher density” languages are those in which there is either a high demand for
 translation services, a high supply of available linguists, or both. “Lower density” languages
 are those in which there is either a low demand for translation services, a low supply of
 available linguists, or both. The FBI further designates priorities — high, medium, and
 low — within each group.


                                              20
       In response to this recommendation, the FBI now sets specific target
staffing levels for linguists. 33 As of March 30, 2005, target staffing levels
have been achieved in 23 of 52 languages for which target levels were
established: 4 of the 14 languages designated “higher density,” and 19 of
38 languages designated “lower density.” The FBI has hired 147 language
analysts and contract linguists thus far in FY 2005, resulting in a net
increase of 70 linguists.

       As reported in our July 2004 audit report, the number of full time FBI
linguists and contract linguists increased from 883 in FY 2001 to 1,214 as of
April 2004. Since then, the number of FBI and contract linguists has
increased by 124 to 1,338 as of March 30, 2005. 34



            Table 7: ON-BOARD FBI AND CONTRACT LINGUISTS
            Number of Linguists
              3000
                                            1266     1338
              2500                   1195
              2000              1061                                      Total
                         883
              1500                                   931                  Contract
                                     779    860
              1000       492    657                                       FBI
               500       391    404  416    406      407
                 0
                   FY 2001FY 2002FY 2003FY 2004FY 2005
                     (as of                      (as of
                    9/11/01)                    3/30/05)
                                       Fiscal Year


            Source: FBI Language Services Section



Ongoing Hiring Challenges

      As we described in our July 2004 audit report, in October 2000 the LSS
assumed responsibility for centrally managing the recruitment and applicant
processing of FBI linguist applicants. According to LSS management,
following this centralization the number of linguists approved by the FBI

       33
          The FBI’s target staffing levels were set by calendar year for 2005. In order to
maintain consistency with other information presented in this report, our analysis is by fiscal
year, using the calendar year goals.
       34
          According to the FBI, contract linguists assigned counterterrorism and
counterintelligence material work an average of 29.5 hours per week.


                                              21
increased from less than 80 per year to an average of more than 200 per
year.

       The LSS official responsible for hiring told us that, prior to FY 2002,
the average time to complete the contract linguist hiring process was
approximately two years. We noted in our July 2004 audit report that the
average time had been reduced to approximately 13 months for contract
linguists hired between October 1, 2003, and March 9, 2004.

      The FBI provided similar data for the period from October 1, 2004,
through March 29, 2005. The average time to hire a contract linguist has
increased from 13 months to 14 months, according to the FBI’s
methodology. 35 According to our review, however, it took the FBI 16 months
on average to hire a contract linguist. We accounted for the total time it
takes the FBI to process an application, while the FBI’s figure only counted
the amount of time necessary to complete the four major parts of the
process. 36

      According to a business process engineering firm hired by the FBI to
study the linguist hiring process, over 70 percent of the processing time is
spent waiting in queue (that is, work is not being performed on the
applications because of personnel, space, technology, or facilities
bottlenecks). Data provided by the FBI shows that, on average, the greatest
amounts of time in the hiring process are spent on language proficiency
testing and the security clearance adjudication process. 37

       However, the LSS also provided data showing that at times of great
need for a particular language the hiring cycle time had been reduced to an
average of 31 days. LSS management told us that this was accomplished
without compromising the background security process or language
proficiency testing process. The Section Chief of the LSS told us the FBI was
able to accomplish this by stopping everything and focusing on these
applicants. The applicants were flown in to take the language proficiency
tests, and the Security Division and applicable field offices were given
stringent deadlines. The Section Chief noted, however, that this level of
operations could not normally be sustained.

       35
           This average time does not include applicants who did not have to complete all
parts of the process, whose initial polygraph results were inconclusive and required
additional investigation, or who were unavailable for an extended period of time during the
hiring process.
       36
         The four major parts of the hiring process are proficiency testing, polygraph,
background investigation, and Security Division security clearance.
       37
          The business process engineering firm’s study did not include the security
clearance adjudication process.


                                            22
            The Section Chief also provided information to us on May 25, 2005,
     detailing the Foreign Language Program’s proposed FY 2005 Language
     Analyst Hiring Initiative. The information provided listed FY 2005 hiring
     objectives for the language analyst position and also proposes an
     accelerated hiring process. According to the information provided, the FBI
     expects that adoption of the proposal would reduce the average language
     analyst applicant processing cycle time from an average of 134 days to less
     than 60 days.

            Our follow-up review also found that the FBI continues to process a
     significant number of applications for each linguist hired, although the ratio
     has decreased. In FY 2002, for example, the FBI processed an average of
     14 applicants for each linguist hired and 13 applicants for each linguist hired
     in FYs 2003 and 2004. As of March 30, 2005, the ratio for the fiscal year
     had been reduced to nine applicants for each linguist hired. However, we
     were cautioned by the LSS official responsible for hiring contract linguists
     that the ratio for FY 2005 is low because of staffing shortages in the
     Contract Linguist Unit, which prevents it from screening and processing as
     many applications as it was able to previously. The official told us that all
     applicants are still fully vetted. The official said that if the Contract Linguist
     Unit staff was at full capacity, the ratio would likely be similar to FY 2004.

                            Table 8: CONTRACT LINGUIST
                        APPLICANT-PROCESSING STATISTICS 38

                                             9/11/2001                                 FY 2005 YTD
                                                 to         FY       FY        FY         (As of
               Process Stage                  End of FY    2002    2003       2004     3/30/2005)
 Applications Screened                            15,730   7,272   10,027      6,618          4,131
 Applicants Selected for Processing                   28   4,333    2,615      2,930          1,224
 Failed Proficiency Testing                           25   1,496      510      1,299            612
 Failed Polygraph Examination                         35     238       62         98             47
 Discontinued for Suitability Issues                  13     142       32         23              9
 Denied Access by Security Division                    0      26       32         21              5
 Hired                                                 0     319      203        226            141
 Ratio –
 Applicants Selected for Processing: Hires      N/A        14:1     13:1      13:1          9:1
Source: FBI Language Services Section



     Business Process Engineering Firm Study

           In September 2004, the FBI hired a business process engineering firm
     to examine its linguist-hiring process. Representatives of the firm told the

            38
              The statistics in each column are not exclusive to the timeframe indicated, since
     some actions may have been in process prior to that timeframe.


                                                  23
OIG that the recommendations they expect to make to the FBI in their final
report will include using a web-based applicant communication/management
tool; using third-party test centers for unclassified tasks to eliminate field
office bottlenecks; increasing speaking proficiency testing efficiencies, such as
increasing tester resources and implementing a digital teleconferencing and
recording system; and reducing manual procedures in the hiring process.

      According to the Acting Unit Chief of the Contract Linguist Unit, the FBI
has already taken steps to implement some of these proposals, and the FBI
has asked the firm to study additional processes.


                       QUALITY CONTROL REVIEWS


       Our follow-up review found that the FBI had strengthened its policies
and guidelines regarding quality control of language translations and in
April 2005 implemented a nation-wide tracking system to ensure field offices
were performing the required reviews and monitoring results of the reviews.
During our follow–up work we asked the FBI to provide documentation about
the current status of the quality control program. The FBI provided us with
the revised Translation Quality Control Policy and Guidelines that became
effective on December 30, 2004. 39 On July 12, 2005, the FBI provided the
OIG with the spreadsheets it used to track the first quarterly report from the
field offices and the revised spreadsheet it plans to use to track the second
quarterly reports.


Quality Control Policy

      Our July 2004 audit report stated that the FBI was not meeting its
quality control review requirements for newly hired linguists or linguists with
more than one year of experience. That policy required all translations from
English into the foreign language to be reviewed; all translations from a
foreign language into English that would be disseminated to the public as
public source material outside the FBI to be reviewed; and all summaries,
transcripts, and translations for use in court to be reviewed. We
recommended that the procedures be strengthened to ensure that these
quality control reviews were performed.



       39
            On May 25, 2005, the FBI presented the OIG with a summary of the results of the
first quarterly quality control review completed according to the modified guidelines.
Because this date was after the completion of our onsite work, we were unable to verify the
statistics the FBI provided.


                                            24
       In response to the OIG recommendation, the LSS modified the
Translation Quality Control Policy and Guidelines. These revised guidelines
became effective on December 30, 2004. The new policy requires that
reviews must be conducted only by certified reviewers. 40 If no certified
reviewer is available, the field offices may use designated GS-12 or GS-13
linguists.

      Formerly, linguists with more than one year of experience with the FBI
were required to undergo an annual review which included one or more of
the following depending on the regularly assigned tasks of each linguist:

       •      verbatim and summaries of documents.

       •      verbatim and summaries of audio which could have included
              Title III (criminal) or FISA audio.

       •      an assessment of the linguist’s interpreting ability, if applicable.

       Under the FBI’s new policy, these requirements are still in effect.
However, the new policy also requires two quality control reviews that
include randomly selected materials marked as “Not Pertinent” by the
linguist being reviewed. 41

       Under the previous policy, linguists with less than one year of
experience with the FBI were to have 100 percent of their work reviewed for
the first 3 months, followed by random quarterly reviews during the next
9 months and annual reviews thereafter. Under the new policy, after
completion of administrative, operational, and equipment/technology
training, new linguists will have all of their translations reviewed for only the
first 40 hours of work. Random reviews will be conducted during the next
80 hours and must include at least two reviews of materials marked as “Not
Pertinent” by the linguist. Thereafter, annual reviews are to be conducted.




       40
           Certified reviewers have received specialized training and have passed an exam to
be certified. In addition to using the Quality Control Work Review Error Notation Key to
annotate anomalies as before, they also are required to adhere to the FBI’s standards for
translation outlined in the Language Services Section’s Manual of Standards of Translation.
As of the middle of April 2005, the Language Services Section had completed four training
sessions and trained approximately 100 certified reviewers.
       41
          Material marked as “Not Pertinent” does not require the production of a tech cut.
A tech cut is a summary of the pertinent details of a telephone call rather than a verbatim
translation.


                                            25
      Other changes in the new policy include:

      •     requiring that reviews be conducted anonymously whenever
            possible;

      •     reviewing each language a linguist translates or interprets for at
            least 20 percent of their time; or if the linguist occasionally
            translates material that may impact an investigation or affect a
            substantive matter, then the linguist will be reviewed in all
            languages they translate;

      •     requiring supervisors or Field Office Representatives to give
            prompt feedback to the linguists, resolving any deficiencies, and
            tracking and maintaining a record of all reviews; and

      •     identifying specific actions for supervisors to take when there is
            a disagreement with results of the quality control reviews.

       We believe the policy changes address the concerns raised in our
July 2004 audit. However, we could not perform testing to determine if the
new guidelines for quality control reviews were being followed because the
first quarterly report under the modified quality control policy was not due
until April 15, 2005, after we completed our fieldwork for this follow-up
review.


Tracking Results of Quality Control Reviews

      In our July 2004 audit, we found that the FBI had no nation-wide
system to track the results of quality control reviews. We recommended
that the FBI implement a system to monitor compliance with the quality
control procedures, both at the field office and national levels.

      During our follow-up work performed in March 2005, we inquired
about the FBI’s progress toward developing a nation-wide system to track
the results of its quality control reviews. Since the completion of our
previous audit work, annual reviews for full-time linguists in the field offices
should have been forwarded to the LSS by June 30, 2004; reviews for
contract linguists by September 30, 2004, before their annual contracts were
renewed on October 1; and reviews for full-time linguists at the Language
Services Translation Center by November 30, 2004.

      We checked on the status of these reviews and found that, as of
March 2005, the LSS had not monitored whether the field offices had
performed the required quality control reviews. Even when the field offices
had provided appropriate forms documenting completed reviews to the LSS,


                                      26
these forms had not been entered into a tracking system. However, on
July 12, 2005, the FBI provided the OIG with documentation showing that it
had initiated a nation-wide tracking system and had used the new system to
track the first quarterly report received in April 2005.

       In its response to our July 2004 audit, the FBI also stated that two
applicants had been selected who would serve as Foreign Language Program
Specialists and would track approximately 650 linguists each. The FBI
predicted that by the end of calendar year 2004, the Translation and
Deployment Unit would be able to monitor and track the field’s compliance
regarding quality control reviews. However, only one person was assisting
the Program Manager of the FBI Linguist Program at the time of our
follow-up work in March 2005 and she had only been working in that position
since January 24, 2005. She stated that her duties included making sure
the field offices are in compliance with filing quarterly reports; keeping track
of quality control reviews for new-hires and annual reviews for linguists with
over one year of experience; and coordinating the certified reviewer training
sessions. But she had not been informed that it was her responsibility to
maintain a tracking system for results of the quality control reviews.

      On June 7, 2005, the OIG received notification that the FBI had added
an Acting Program Manager to the Quality Control Program and had plans to
add three more staff members within the month. However, as of July 13,
2005, no additional staff had been added.

       The Unit Chief of the new Operations Management Unit responsible for
tracking compliance with the quality control policy told us on April 22, 2005,
that the LSS had received the first submission of the QC Quarterly
Compliance Report Forms required by the new quality control policy and
guidelines and was following up with field offices that did not comply with
the new requirements. The Unit Chief said that the FBI expected difficulties
for the first reporting period, but he planned to follow up with the field
offices.

      The Acting Program Manager of the Quality Control Program told us
that the field offices had been sent more simplified forms and clearer
instructions to facilitate the second quarterly quality control report due on
July 15, 2005. The OIG received a copy of the new format on July 12, 2005,
and agrees that it is much simpler to complete and should alleviate the
problems encountered with the first quarterly report. After receiving the
second quarterly report, the FBI expects to make further refinements to the
tracking system.

      During the exit conference for this follow-up review on May 25, 2005,
the Unit Chief provided the OIG with a summary of the results of the first
quarterly quality control review. However, the supporting documentation


                                      27
provided to the OIG in July 2005 did not verify the May 2005 statistics and
therefore are not included in this report.

      In responding to the recommendations in our July 2004 audit, the FBI
also stated that in order to adequately monitor its quality control program, it
would need to hire additional language analysts to address the compliance
requirements for new linguists and the annual reviews of full-time and
contract linguists. The Section Chief of the LSS told us that the FBI expects
10 of the 274 language analysts its plans to hire in FY 2006 to be dedicated
to quality control reviews. The Section Chief also stated that the additional
10 language analysts should provide enough resources for full
implementation of the enhanced quality control program.

      According to the Unit Chief of the new Operations Management Unit,
regional program managers will guide and monitor field supervisors in
adhering to quality control standards and procedures. As noted previously,
the Operations Management Unit will develop, implement, and ensure
compliance with administrative and operational policies, procedures, and
guidelines by Foreign Language Program personnel throughout the FBI.


  ALLEGATIONS RAISED BY SIBEL EDMONDS REGARDING
            FOREIGN LANGUAGE PROGRAM


       In a separate matter related to the FBI’s translation program, the OIG
investigated allegations raised by Sibel Edmonds, a former contract linguist
for the FBI, relating to the FBI’s linguist program. Those allegations
included travel voucher fraud, time and attendance abuse, and allegations of
security concerns about actions by a co-worker related to potential
espionage. The OIG completed a report in July 2004 regarding its
investigation of these allegations, which the Department and the FBI
classified at the Secret level. Subsequently, in January 2005 the OIG
publicly issued an unclassified report summarizing the findings and
recommendations contained in the full report. In Appendix 7 we provide an
update on the FBI’s response to the recommendations in the OIG’s Edmonds
report.


                              CONCLUSION

       The success of the FBI’s foreign language translation efforts is critical
to its national security mission. In our July 2004 audit, the OIG found
several important areas in the FBI’s foreign language program that needed


                                       28
improvement. We believe that since issuance of the July 2004 report the
FBI has taken significant steps to address many of our recommendations
and has made progress in improving the operations of the Foreign Language
Program. However, key deficiencies remain, including a continuing amount
of unreviewed material, instances where “high priority” material has not
been reviewed within 24 hours, and continued challenges in meeting linguist
hiring goals and target staffing levels.




                                    29
                                                                         APPENDIX 1

  AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

      The objectives of this audit were to follow up on and evaluate
information provided by the Federal Bureau of Investigation (FBI) in
response to recommendations made in the July 2004 audit report entitled,
“The Federal Bureau of Investigation’s Foreign Language Program –
Translation of Counterterrorism and Counterintelligence Foreign Language
Material” and to assess the progress made by the FBI since that audit.


Scope and Methodology

      We performed the follow-up audit in accordance with Government
Auditing Standards and included such tests of the records and procedures as
we deemed necessary to accomplish the follow-up audit objectives. 42 Our
follow-up audit focused on the Foreign Language Program’s operations since
July 2004. We conducted work at the Language Services Section of the FBI.
We did not conduct follow-up work in any field offices.

      In our follow-up audit, we interviewed officials from the FBI, including
the Section Chief and other officials in the Language Services Section; the
FBI Deputy Director; the FBI Executive Assistant Director for Intelligence;
and Assistant Directors for Counterterrorism and Counterintelligence, among
others.

      In addition to the interviews, we reviewed documents and records
pertaining to the foreign language program since July 2004. These
documents and records included workload statistics, workforce planning, and
budget information. We also reviewed the FBI’s revised Quality Control
Policy and Guidelines and a report summarizing the results of the first
quarterly review period after the revised policy was implemented.

      To achieve the audit objectives, we used computer-processed data
contained in the FBI’s FISA digital collection systems. The systems contain
data regarding FISA audio sessions collected and reviewed by the FBI. We
also used the FBI Language Services Section Counterterrorism FISA Monthly

      42
           Appendix 7 provides a summary of a separate investigation conducted by the OIG
on allegations regarding the Foreign Language Program. This investigation was not
performed in accordance with Government Auditing Standards.


                                           30
                                                               APPENDIX 1

Survey data. The FISA Monthly Survey is required to be completed by those
field offices with active counterterrorism FISAs. The Language Services
Section compiles the statistics submitted by field offices into a summary
report. The report provides monthly collection statistics on counterterrorism
cases, including audio hours collected, reviewed, and accrued backlog. The
Field Workload Survey is a quarterly report, also completed by each field
office and compiled into one report by the Language Services Section. This
report provides data regarding audio and text hours collected and reviewed.

       We assessed the reliability of the data during our previous audit by
obtaining information from FBI officials and performing various tests. Based
on the results of our previous tests and information regarding the FBI’s FISA
digital collection system data and Counterterrorism FISA Monthly Survey
data, we concluded that the data were sufficiently reliable to achieve our
audit objectives.




                                     31
                                                               APPENDIX 2

                              ACRONYMS

EAD-I   Executive Assistant Director in Charge of the Directorate of
        Intelligence
EDMS    Electronic Surveillance Data Management System
FBI     Federal Bureau of Investigation
FISA    Foreign Intelligence Surveillance Act
FY      Fiscal Year
GS      General Schedule
LSS     Language Services Section
OIG     Office of the Inspector General
QC      Quality Control
YTD     Year-to-Date




                                     32
 Appendices 3 through 6, pages 33 through 39, contain classified
    information and do not appear in this unclassified report.
These appendices are contained in a separate classified document.
                                                               APPENDIX 7

 UPDATE ON THE OFFICE OF THE INSPECTOR GENERAL’S JULY 2004
 REPORT, “A REVIEW OF THE FBI’S ACTIONS IN CONNECTION WITH
  ALLEGATIONS RAISED BY CONTRACT LINGUIST SIBEL EDMONDS”

       In a separate matter related to the FBI’s translation program, the OIG
investigated allegations raised by Sibel Edmonds, a former contract linguist
for the FBI. In July 2004, the OIG completed a 100-page report regarding
its investigation, entitled ”A Review of the FBI’s Actions in Connection With
the Allegations Raised by Contract Linguist Sibel Edmonds.” The
Department of Justice and the FBI classified the review as Secret because it
contained national security information. This Secret report was provided to
the FBI, the Department of Justice, congressional oversight committees, and
the 9/11 Commission. The OIG subsequently created an unclassified 35
page summary of the report that the Department and the FBI agreed was
unclassified. The OIG released the unclassified report in January 2005.

     Edmonds worked for the FBI from September 20, 2001, until March
2002, when the FBI terminated her services. Before her termination,
Edmonds had raised a series of allegations regarding the FBI’s linguist
program, including security concerns about actions by a co-worker related to
potential espionage.

       In addition, Edmonds raised other allegations to the OIG regarding the
FBI’s language program, such as travel voucher fraud and time and
attendance abuse. Edmonds also alleged that the FBI had hired unqualified
personnel and used one of them to translate military interviews despite that
person’s weak language skills. Finally, Edmonds complained that her
termination was in retaliation for her complaints.

       The OIG review concluded that many of Edmonds’s core allegations
relating to the co-worker had some basis in fact and were supported by
either documentary evidence or witnesses other than Edmonds. While the
evidence did not prove that the co-worker had disclosed classified
information, the OIG concluded that the FBI should have investigated
Edmonds’s allegations more thoroughly. The allegations, if true, had
potentially damaging consequences and warranted a thorough and careful
review by the FBI, which did not occur.

      We understand that, as a result of the OIG’s recommendation, the FBI
currently is conducting further investigation into this matter.

       With respect to Edmonds’s claim that she was terminated from the FBI
in retaliation for her complaints, the OIG review concluded that her
allegations were at least a contributing factor in the FBI’s decision to
terminate her services.

                                     40
                                                                APPENDIX 7

       With regard to various other allegations made by Edmonds concerning
the FBI’s foreign language program, our review substantiated some but did
not substantiate others. For example, we found that certain travel by
linguists was wasteful, and that a contract monitor was hired even though
he had not scored high enough on the language test to qualify for the
position. However, we did not find sufficient evidence to substantiate
Edmonds’s allegations that the FBI condoned time and attendance abuse, an
intentional slow down of work to support hiring additional analysts, or travel
fraud.

       The OIG report contained eight recommendations related to the FBI’s
foreign language translation program. In September 2004, we received the
FBI’s initial response to the recommendations and, based on that response,
closed one recommendation. The other seven recommendations remained
“resolved but open” until we receive further information from the FBI. The
FBI recently provided further information regarding their action in response
to the recommendations, which we summarize below:

•     Written guidelines for risk assessments in background
      investigations of linguists. We recommended that the FBI create
      written guidelines that clearly state the factors to be weighed when
      deciding whether a risk assessment is necessary in a particular case.

      The FBI agreed that risk assessments are necessary and stated that, in
      July 2004, it issued a new policy covering this area. The FBI provided
      a copy of that policy to the OIG, and we agreed that the policy
      addresses the recommendation raised by the OIG.

•     Written guidelines on reviewing materials. The contract linguists
      we interviewed said they received oral training from case agents and
      other linguists about their work, but they had not received any written
      guidance regarding review and translation of foreign language
      materials. We recommended that generalized guidance to linguists
      regarding reviewing materials would be useful to help ensure that
      contract linguists have a common understanding of their work
      requirements when reviewing materials.

      In response to this recommendation, the FBI noted that it had
      implemented a “New Linguist Training Program.” The FBI provided the
      OIG with copies of the syllabus of the training and the training
      materials, which reflect that the training addresses the areas of
      concern raised by the OIG. The FBI also recently stated that its
      newly-completed manual for linguists addresses the areas of concern
      raised by to the OIG’s report. The OIG has requested a copy of the
      manual.

                                     41
                                                              APPENDIX 7

•   Assignments of material for review. The OIG found that the way
    material was assigned for linguists to review created potential security
    risks and also contributed to the conflict that arose between the
    linguists in the Edmonds case. We recommended that the FBI ensure
    that supervisors determine which material should be reviewed by
    linguists. In response to this recommendation, the FBI stated that a
    standard operating procedures manual for linguist supervisors was
    expected to be finalized by the end of June 2005 and would address
    this issue. The OIG has requested a copy of the manual when it is
    completed.

•   Systematic tracking of reviewed materials. The OIG found that
    because of resource issues, more than one linguist may be assigned to
    a particular translation task. Because of the way the FBI’s computer
    system operates, we found the FBI has no method to establish with
    certainty which linguist reviewed which material. We recommended
    that the FBI consider implementing a practice to ensure that the FBI
    has a record of work completed on a particular task and consider
    creating an audit trail that would record each person who worked on
    the task.

    In its most recent response, the FBI stated that a new data
    management system with the capability of retaining detailed audit
    trails would be implemented beginning in 2006 (the Electronic
    Surveillance Data Management System or EDMS), although it is
    anticipated that it will take up to three years to fully deploy the
    system. The FBI stated that, in the interim, it will adopt the practice
    described by the OIG through which a record of work completed,
    including information about who worked on a task, is maintained in an
    electronic format. The FBI stated that this interim measure will be
    implemented in all FBI field offices as soon as operating procedures
    are in place. The OIG has requested that it be informed when field-
    wide implementation of this interim measure is complete.




                                    42
     APPENDIX 8




43
     APPENDIX 8




44
     APPENDIX 8




45
     APPENDIX 8




46
                                                                  APPENDIX 9


         OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS OF
                       THE FBI’s RESPONSE

      The FBI’s response to the OIG’s audit report addresses two main
issues: (1) Backlog and Prioritization, and (2) Hiring of Linguists. We briefly
discuss each of these issues below.

Backlog and Prioritization

      The FBI’s response states that it has analyzed the counterterrorism
backlog in the monthly FISA surveys identified in our report to determine
whether the backlog is of concern or is empty microphones or white noise or
other audio that does not require translation. The FBI stated that “52.8
percent of the 8,354 hours of counterterrorism backlog is likely white noise.”
Because the FBI did not provide this information to us previously, we are not
able to audit or verify these numbers. However, even if accurate, this figure
suggests that approximately half the counterterrorism backlog, or more than
3,900 hours of counterterrorism collections, consists of counterterrorism
material that should be reviewed to determine the intelligence value of the
information collected. In our judgment, even these numbers suggest that
the FBI must continue its efforts to eliminate this backlog.

Hiring of Linguists

      The FBI’s response suggested that the report fails to distinguish
between the FBI’s hiring goals, which are based on the funding that is
established for hiring linguists, and the FBI’s linguist staffing needs which
the FBI determines without accounting for budget limitations.

      In fact, the report treats the FBI’s staffing needs and hiring goals
separately. The subheading under “Hiring Linguists” on page 20 of the
report indicates that we are discussing “Goals and Target Staffing Levels.”
The FBI’s success at meeting hiring goals is discussed on pages 20 and 21 of
the report and its efforts at meeting target staffing levels is discussed on
page 22.

      In our July 2004 report, we noted our concern with the FBI’s
methodology for setting hiring goals and specifically recommended that the
FBI base its hiring goals on staffing levels to be achieved (including
accounting for attrition and contract linguists who work less than a full
week). In response, the FBI established both “hiring objectives” and “target
on-board linguist levels” for calendar years (CY) 2005 and CY 2006, and we
acknowledged the FBI’s establishment of target staffing levels on page 22 of
the report.




                                       47
                                                                APPENDIX 9


      We agree with the FBI’s comment that it cannot hire more linguists
than funding allows. However, we also note that the FBI can re-program
funds to meet critical contract linguist needs. Our report also presents
information on page 14 showing that Foreign Language Program funding has
increased significantly, from $21.5 million in FY 2001 to $36.2 million in FY
2005 and on page 15 showing that spending for Language Analyst salaries
and benefits has increased from $30.7 million in FY 2001 to $34.8 million in
FY 2005.

       However, to further clarify in the report the difference between target
staffing levels and hiring goals, we modified footnote 6 on page vi and added
footnote 28 on page 20 of the report to read: “Target staffing levels refer to
staffing needs that are based upon workload volumes and reflect the number
and type of linguists required to meet that workload regardless of available
funding. Hiring goals refer to goals that are set only after funding for
personnel has been established.”




                                     48
